             ..J   . -1




Deparment of Health and Human Services
                   OFFICE
   INSPECTOR GENERAL





 HEAD START SELF- ASSESSMENT





               f,RVICE$.

                           Richard P. Kusserow

                          l.
        .f


                           INSPECTR GENERA
       '0                      FEBRUARY 1991
             ;fq"d3U
             ~ "'




Department of Health and Human Services

                       OFFICE
   INSPECTOR GENERAL





 HEAD START SELF- ASSESSMENT





                    f,RVICE$.

        .f                      Richard P. Kusserow
                                INSPECTOR GENERAL

       '0                          OEI-04- 89-00790
             ;fq"d:W
                   EXECUTIVE SUMMARY

PURPOSE

This inspection was conducted to examne self-assessment in the Head Star Progr. It
describes the process and analyzes the utility of self-assessment to grtees and to the staff of the
Admnistration for Childrn Youth and Famlies (ACYF).



BACKGROUND


Head Start Program

Head Star is a comprehensive, pre-school child development progr designed to serve
low-income childrn, handicapped children and their famlies. The progr is based on the
premises that all childrn shar cenain social and cognitive development needs and that
low- income children can especially benefit from a developmenta progr addressing those
needs.

Head Star is admnistered by the ACYF within the Offce of Human Development Services
(OHDS). In Fiscal Year 1988 , the program served 446, 523 childrn in 1 910 local projects
throughout the countr, with a Federal expenditue of $1.2 bilion.


Self-As!essment

Title 45, Par 1304 of the Code of Federal Regulations requirs every Head Sta grantee to
conduct an annual self-assessment of its progr.   These regulations give the Policy Council
responsibilty for conductig the self-assessment. However, the regulations do not provide
guidance on how self-assessment should be done. Grtees ar allowed to self-assess in any
manner they choose.

The ACYF has not developed criteria for judging the quality of a self-assessment. Many
grantees, though , have made judgments about the effectiveness and wonh of self-assessment
practices.
FINDINGS

This inspection found:

          Virually all grntees are conducting self-assessment annually, as required.

          Nearly all grantees (90%) use the Self Assessment Validation Instrment (SA VI) for
          conducting self assessment. However, many have concerns about its length,
          complexity and comprehensiveness.

          Policy Councils are involved in the self-assessment process in a varety   of ways,
          including design , data collection, analysis and oversight.

          Every self-assessment requires a significant commtment of staff and volunteer
          resources.

          Grantees use self-assessment for a varety of puroses, including determning
          compliance with program performance standads, improving programs, garering
          additional resources, enhancing public relations and training team members.

          The ACYF uses self-assessment findigs in its review of grantees ' major refunding
          applications every third year, and as a basis for on-site monitorig of grantees.

The self-assessment process would benefit from:

          being scheduled later in-the program year to allow for more traiing;

          improved trning by   ACYF and the local grantee; and,

          improved communication/feedback between ACYF and the grantee, and within the
          grantee self-assessment team.


RECOMMENDATIONS

The ACYF should:

    Improve the Self- Assessment/alidation   Instrment (SAVI) which grantees use for

    conducting self-assessment.


         Eliminate the redundancy in the instrment to make it simpler and less time-consuming.

         Simplify the terms used in the instrment in order to make it more appropriate for
         parents and other team members not famliar with Head Star termnology.
         Update the instrment to keep it current with changes in the program, for example
         by adding transponation and handicapped sections.

    Provide feedback and technical assistace which   grantees fmd useful when they voluntarly
    submit their self-assessment findings.

    Develop and provide training and technical assistace to grantees on how to improve
    self-assessment.

Grantees should:



    Provide feedback to self-assessment team members and all sta on the findings and actions
    resultig from self-assessment so that they can better understand the process.


    Trai team   members thoroughly so that each fully understads his/her component and
    responsibilty in the self-assessment process.




COMMENTS ON THE DRAFT REPORT

The comments from the Assistat Secreta for Human Development Services on the draft report
were supponive of the fmdings and the recommendations. However, OHDS did not agree with
an OIG recommendation in the draft repon that grtees be required to conduct self-assessments
no earlier than March. We have deleted that recommendation from the fmal repone
                                 ..........
                      ..............  ............................  ......
                                            ............ ..............   ................
                                                            ............................
                                                                           ........ ......
                                                                          ..........         ....  ..........
                                                                    ........................................
                                                                                     ..........
                                                                                              ............
                                                                                            ....  ...... ......
                                                                                                    ............  ................
                                                                                                               ..............
                                                                                                           ........ ........
                                                                                                                 ........
                                                                                                                ......  .....
                                                                                                                  ..........  .....
                                                                                                                           ........
                                                                                                                     ............
                                                                                                                                ......  .................
                                                                                                                                 ........
                                                                                                                                        ........
                                                                                                                                      ............
                                                                                                                                       ..........
                                                                                                                                      ........     .........
                                                                                                                                                       ......
                                                                                                                                                    ....
                                                                                                                                                 ........
                                                                                                                                           ........
                                                                                                                                          .... ....   ....
                                                                                                                                                     .... ......
                                                                                                                                                              ..
                                                                                                                                                             ...




                        TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTR 0 D U CTI 0 N ..

       Purpose...... ...... .................. ....

       Ba ck groun d.......... ...... ...... .................... .... ................ ..........

       Methods........................................ ......

FIND IN G S ....

       Virtually All Grantees Are Conducting
       S elf - Assessments           .. ............ ............ ................ ...... .... .......... 


       Self- Assessment Is Useful To G ran tees .............................................................


       A CYF Can Improve Self- Assessment ...............................................................


CON CL U SI 0 N S .......... .... .......... .... .... 


RECD MMEND A TI 0 NS .........................................................................................


COMMENTS ON THE DRAFT REPORT ............................................... 12 .


APPENDIX

       Detailed Description of Methods.................................................................. A-


       Comments on the Draft Report ....................................................................

                            INTRODUCTION

PURPOSE

This inspection was conducted to examne self-assessment in the Head Star Program. It
describes the process and analyzes the utilty of self-assessment to grtees and to the staff of the
Administration for Childrn Youth and Famlies (ACYF).


BACKGROUND

Head Start Program

Head Star is a comprehensive, pre- school child development program designed to serve
low- income children , handicapped children and their famlies. The progr is based on the
premises that all children shar cenain social and cognitive development needs and that
low-income children can especially benefit from a developmental progr addressing those
needs.

Head Star is admnistered by the ACYF within the Offce of Human Development Services
(OHDS). Most projects are funded and monitored by the regional ACYF offces. Head Stan is
the only child development program that is largely Federally funded. In Fiscal Year 1988, the
program served 446, 523 children in 1 910 local projects throughout the countr, with a Federal
expenditure of $1.2 bilion.

Head Star is also unusual in that it is one of the few large programs of the Deparent       of Health
and Huma Services funded diectly to local grantes. Grantes include local general purose
governments, school boards, community action agencies and single purose non-profit
organizations. Grtees ar required to contrbute a non- federal share to their local projects, of
at least 20 percent of the total operating amount.

A grantee may operate the entie local project   or delegate the operation of al or   par of it to other
suitable entities called delegate agencies.

There are four component areas for all Head Star programs: education , health, social services
and parent involvement. Head Star provides a wide varety of services across these component
areas.

Par of the local grant is designated for trning. Each local project has access to a Regional
Resource Center (RRC), a contractor which is responsible for providing training on all Head
Star components except health.
 Expectations for grantee perfonnance ar   detaled in   the Head Sta   perfonnance    stadards for

 each component area. This careful blueprint is said by respondents at all levels to have

 contrbuted to the program s success since its inception in 1965.



 Policy Council

 Each grantee has a Policy Council (called the Policy Commttee in delegate agencies). The
 Policy Council is a group comprised of parnts of curently enrolled Head Sta children and
 representatives of the community. No more than 50 percent of the Council's members may
 community representatives.

 The Policy Council exercises approval and disapproval functions over the grantee s operations.
 The Policy Council reviews and votes on such personnel actions as promotions,       hig
                                                                                       and
 firng. It also approves grant applications, major purchases and proposed changes in program
 operations. The Policy Council is one of the priar vehicles for promotig parnt involvement
 in the local program.


 Self-Assessment

  Title 45, Part 1304 of the Code of Federal Regulations requirs every Head Sta grantee to
  conduct an annual self-assessment of its program. Head Star is one of the few Federal grant
. programs that requires such a sophisticated self-examnation.

 The regulations give the Policy Council responsibilty for   conductig the self-assessment.
 However, the regulations do not provide guidace on how the self-assessment should be done.
 Grantees are allowed to self-assess in any manner they choose as long as all component areas are
 covered.

 The ACYF has not developed criteria for judging the quality of a self-assessment. Many

 grantees, though , have made judgments about the effectiveness and wonh of self-assessment

 practices. Grantee staf shar these judgments with inspection team members. The

 characteristics which distinguish outstanding self-assessments ar said to include:


            a high degree of commitment by local Head Sta project management to the process
            of self-assessment;



            the total involvement of the Policy Council in conducting the activity;

            intensive training for self-assessment team members;

            open communication providing all team members the opponunity to express their
            opinions and ideas;
             feedback to all team members on findigs   and   corrtive actions; and

             a formal , wrtten corrective action plan outlining the steps needed to bring the Head
             Star project into compliance with performnce standards.



Program Monitoring

Current ACYF policy calls for an on-site monitoring visit by ACYF staf      every three years prior
to submission of the major refundig application.

The ACYF has developed a Self- Assessment/alidation Instrment (SA VI). The grantees may
use the instrment to conduct self-assessment. The ACYF staf use this document to validate
grantees ' self-assessment fmdings. The SAVI details the performance standards and is
acknowledged by respondents at all levels to be rigorous and comprehensive. There is also a
SA VI for   Admnistration.


METHODS

Information for this inspection was gathered though discussions with Head Sta grantee staff
parents and community representatives. Discussions were also held with sta of ACYF and the
Regional Resource Centers. Additional information came from review of Head Star regulations
and other program documents penient to self-assessment. Appendix A provides more detaled
information regardig the methods used for this inspection.
                                          ' '




                                     FINDINGS

VIRTUALLY ALL HEAD START GRANTEES ARE CONDUCTING
SELF - ASSESSMENTS

Policy Council Involvement

Although Policy Councils are involved in the self-assessment process, the nature of their
involvement vares from program to progr. Policy Council activities include planning and
diecting the self-assessment, collecting and analyzing data, reviewing findigs and corrective
action plans and implementing cOITective action plans. Respondents repon that the greater the
involvement of Policy Council members in the self-assessment process, the better the process
works.


Use of SA VI

Nearly all grantees (90%) use the SAVI for conductig the self-assessment. Use of the SAVI
helps to organize data collection in all program aras and anticipates the ACYF staf validation.

Despite its widespread use, the SA VI does cause problems for many team members.
Respondents in 35 of the progrs which use it question the suitabilty of the SA VI for
conducting the self-assessment. They are most concerned that the instrment is too complex and
that parents fmd it hard to use. The Program Performance Stadards SA VI is 81 pages. It
requires that evaluation be done on such multi- facete crteria as:

       Does the parent involvement program adequately provide methods and
      opportunities for enhancing parents parenting ' skils such as:

           Experiences and activities which lead to enhancing the development
           of their skils, self-confidence, and sense of independence in fostering
           an environment in which their children can develop to their full
           potential... "

Most grantees (86%) have suggestions for modifying the SA VI to improve its utility in
self-assessment. Many propose simplifying the abstract and technical terms in the document so
that it is more understandable to parents who serve as self-assessment team members.

Others suggest elimnatig redundancies thoughout the instrment. Many of the redundancies
result from the inteITelated nature of the components of the Head Sta Program. For example,
parent education , an impottt facet of Head Star, is addressed in the education , health and
social services components of the SA VI. There is, funher, a parnt involvement component
which covers these same parent education issues. Many grantes suggested that for
self-assessment, once would be enough.
Some respondents suggest that sections on trsponation and services to handicapped children
be added to make the instrment more complete. While a SA VI instrment for the handicapped
does exist in some regions, this inspection found that may grtees were either unaware of it or
not using it.

Several grtees have adapted SA VI to their own programs, for example, by simplifying it into a
short checklist. Some grantes use a shon checklist for two years and then use the more
comprehensive SAVI in the third year to prepare for the major refunding application.


Commitment of Resources

Self-assessment represents a major commtment of resources among Head Star grantees. These
resources include:



            staff time developing and delivering training to self-assessment team members.

            time spent by grntee personnel , Policy Council members and community volunteers
            receiving training and actually performg the self-assessment.

            time devoted by team members and Head Sta managers and staff developing and
            implementing solutions to problems uncovered by self-assessment.

At Head Sta grantee and delegate agencies, the size of the resource commtment depends on the
number of persons involved in the self-assessment. These numbers correlate roughly with the
size of the Head Star project. Since self-assessments typically exame at least one component
in each Head Star center, large grantees (with many centers) require much larger teams. One
grantee included in this inspection described a self-assessment team of 64 members.

Teams ar made up of Policy Council members, grtee sta, parnts and persons from outside
the program. Respondents repon that a diversity of well- qualifed people improves the quality
of self-assessment.


Training for Self-Assessments


Training is such an imponant par of the resources being commtted to Head Star that it deserves
specific attention. One- half of Head Star Directors repon never having received formal training
in conduct of self-assessment. Most of those who have received instrction were traied six
more years ago. Directors report that this lack of training in self-assessment is a major detrment
to the activity.

Although many respondents report that they are unaware of available trning, al of the RRCs
contacted can provide self-assessment traiing. The RRCs repon that this training is not often
requested by grantees. Since RRCs usually organize training for clusters of grantees rather than
individual grtees, it is unlikely that the RRC wil provide self-assessment traiing   unless
interest is widespread.

Grantees train their assessment teams prior to each annual self-assessment. Traiing is usually
organized around progr components and conducted by component coordinators or the Head
Star Director. Typically, self-assessment training rages from two hours to one- hal day.


Given the comprehensiveness of the widely-used SA VI, ACYF respondents question whether
such short periods of training are adequate. Parents, to, repon that they have difficulty with
aspects of the SA VI that reuir specialized educational background. In fact, there ar elements
in each component of Head Star which require special knowledge. Judgments on " foods which
broaden the child' s food experience " or the existence of an "organize health education
program " would be diffcult without such knowledge.

Some Head Star grtees with pancularly successful self-assessments trai team members at
each Policy Council meeting   stag    in September, the beginning of the Head Sta school year.
By the time of the self-assessment in March or Apri, the parnts on the team have received up to
thiny-six hour of  tring.    In order to allow suffcient time to prepar, at least one regional
offce now requires that grantees schedule self-assessments no sooner than March.



GRANTEES REPORT THAT SELF - ASSESSMENT IS USEFUL

All grantees contacted in this inspection report some positive outcomes from self-assessment.
Head Star Directors, component coordinators and parents are pancularly positive in their
repons. Community professionals are also enthusiastic about their parcipation. On the other
hand, first line program staf, for example teachers and aides, tend to question the value of the
self-assessment process which they say consumes to much time for the benefits gained. Often
these staf are involved only in the trning and data collection phases of the activity and are not
famliar with outcomes.


Head Star grtees use the self-assessment process and the fmdings in five ways:

           identifying and correcting areas out of compliance with Head Star performance
           standards,

           improving program areas which ar     in compliance,


           garering additional resources for the project,

           educating self-assessment team members about the Head Star     program, and


           enhancing the project's public relations.
Identifying and Correcting Areas Out Of Compliance

Nearly all grtees (91 %) consider any negative self-assessment findig to be non-compliance
with performce standads. If the self-assessment contas no negative findings, grantees
consider themselves to be in compliance. Once non-compliance is determned, the Head Sta
Director or her/his designee develops a corrctive action plan to addrss the aras out of
compliance.

Usually the corrective action plan is wrtten and specifies actions to be taen within specific      tie
frames. In some cases, the plan is not wrtten , but an infonnal agreement is made by the Head
Star Director and staf to tae cenan corrective actions. A formal, wrtten corrctive action plan
is reponed by many respondents to be superior in that it provides a common basis of
understandig for all those involved. In many projects, the Policy Council may also vote to
approve the corrective action plan. 



Most grantees (70%) trat        self-assessment findigs of non-compliance as an internal matter.
These fmdings ar      not   regularly reponed to the regional ACYF offce.

In two instances, however, self-assessment findings     are   routinely reportd to ACYF:

             The findings of the most recent self-assessment ar    included in   the major refunding
             application.

             Where corrective actions require substantial new resources, grtees may use
             self-assessment findings to justiy requests for supplemental funding.

Head Stan Directors repon that non-compliance uncovere           though the self-assessment is
seldom a serious problem; the shoncomings identified are usualy smal and easily corrected.
Nor are grantees concerned that ACYF wil become aware of their non-compliance findings, as
there is little lielihoo of a monitoring visit.


Improving the Program

Self-assessment results in two types of modification to Head Star projects. Most of the
modifications mentioned in the corrctive actions plans brig the project into compliance with a
Head Stan requirement. For example, if the self-assessment discovers a staiay accessible to
the children , the center diector may instal a gate to bar access.

However, every improvement does not addrss non-compliance. Other self-assessment
follow-up actions improve operations which were alady in compliance. For example, the
assessment team may discover and repon on an effective teaching technique or an unusually
good set of materials in one center which could be adopted by other centers in the project.
Respondents cite innovative ideas from parents as the most rewarding of these modifications
because they demonstrate parent involvement in improving their children s Head Sta program.
 Garnering Additional Resources

 Grantees use the self-assessment process in two ways to increase their resources. First they use
 self-assessment findings to justify requests to ACYF for additional funding. Often these requests
 represent one- time capita expenditures to improve facilties or to purchase major equipment that
 the self-assessment shows is needed.

 The second type of increased resources comes from the expanded "Head Star famy. " Many
 grantees repon that they have received additional cash , in- kind contrbutions and pro bono

 services as a result of the involvement of community leaders in self-assessment and their

  buy- in" to the Head Sta philosophy. Such benefits as expanded health screenings, newly

 donated facilities and improved access to local social services were mentioned.



 Educating Self-Assessment Team Members

  All grantees use the self-assessment activity as a vehicle for educating team members about the
  Head Star Program. Much of the     staff trning is cross-component traiing. A staf member
. who works in one area wil become familar with and assess another. Normally staf members
  assess centers other than those in which they work. Assessing other component areas and other
  centers tends to broaden staf understanding of Head Sta.

 Parents   are usually trained to perform self-assessment in one component area. Such traiing
 increases their understading of how their children benefit from that component Many grtees
 cite this traiing as one of their most effective activities with parents. Yet 58% of the projects

 train parents for less than four hour. This miimal  trng        greatly dinishes the potential
 benefit parnts can brig to self-assessment, as well as the value that they can receive from it.


 Enhancing Public Relations

 Grantes use self-assessment findings to promote the Head Sta     program in their communities.
 Some Head Star grantees use a number of community professionals on their assessment teams.
 In this way they famliarze outsiders with the Head Star program. Respondents who have
 successfully used this approach say that Head Star sells itself.

 By involving qualfied professionals from outside the Head Sta progr, grtees ar able to
 extend the "Head Star famy " in the community. The local project can be enhanced as these
 professionals share new skills and ideas. However, most grantees fail to utilze these generally
 available community resources.
ACYF CAN IMPROVE SELF-ASSESSMENT

Better Using Self-Assessment Results

The ACYF staf use self-assessment repons as the basis for monitoring grantee performance.
The ACYF policy calls for one in- depth monitoring visit every th    years. The monitorig
procedur uses the SAVI to valdate grantee self-assessments.    In past year, the monitorig visit
involved several people reviewing the progr for several days. Presently, due to limited travel
funds in ACYF, a typical monitoring visit is more likely to be conducted by one Child
Development Program Specialist (CDPS) for one day or less.

ACYF staf also use self-assessment results by requirng that the most recent findigs be
included in the major refunding package which grantes submit every three years. The findigs
are evaluated along with other information contaned in the application; however, grtees raely
get any feedback specifically on self-assessment findings. Most respondents repon that specific
feedback would be helpful in many cases to assist them in resolving problems.


Improving the Self-Ass.essmentProcess

When ACYF staf receive self-assessment findigs independent of the refunding application
they mayor may not respond with useful feedback to the grtee. Some of the grtees do send
at least summar information to their CDPSs in the ACYF regional offces. Other grantees
repon having done so in the past.

In a few cases, the CDPSs make a signifcant effon to respond to self-assessment inormation
from the grtees. They suggest ways to remedy shortcomings that mayhave been discovered
by other grantees. Grantees who receive this constrctive tye of feeback report that it adds
substatially to the value of self-assessment.



In most cases, however, grantees get no feedback from regional program staf on the findings
which they voluntary submit. ACYF has an opportnity to improve Head Stan projects by
increasing the quantity and quality of the feedback to grtees on self-assessment fmdings.

A well- done self-assessment provides a very imponant framework for an abbreviated monitoring
visit. However, respondents from both ACYF and the grantees question the effectiveness of the
current monitoring practices. They agree that these visits ar too brief and infrquent to be
helpful, either to the grantee or to ACYF. ACYF has an opponunity to improve its process for
monitoring grantees, including the attention given to valdating the self-assessment.

There is a limit to the resources that a grantee can devote to self-assessment. ACYF can help by
improving training packages, updating the SA VI and providing a mechanism for grantees to
share successful experiences.
CONCLUSIONS

Head Start grantees are peIfonning self-assessments as required. Each year, the process of
self-assessment consumes considerable grantee time and effort. All grantees repon that
self-assessment is valuable. The grantees use the activity and the findings in a variety of ways
which strengthen their programs.
The ACYF uses the self-assessment findings for monitoring grantee perfonnance and evaluating
the major refunding package. These uses make self-assessment valuable to ACYF.

Increased infonnation and feedback on self-assessment are needed to improve the activity. With
ACYF assistance , the benefits of self-assessment to grantees could be substantially increased.
                     RECOMMENDATIONS

The ACYF should:

    Improve the SAVI instrment which grantees use for conducting self-assessment.

         Eliminate the redundancy in the instrment to make it simpler and less time-consuming.

         Simplify the terms used in the instrment in order to make it more appropriate for
         parents and other team members not famliar with Head Star termnology.

         Update the instrment to keep it current with changes in the progr, for example,
         by adding sections on transporttion and services to the handicapped.

    Provide feedback and technical assistace which grantees fmd useful when they voluntarly
    submit their self-assessment findings.

    Develop and provide training and technical assistance to grantees on how to improve
    self-assessment.

Grantees should:



    Provide feedback to self-assessment team members and all staf on the. findigs and   actions
       ultig from the self-assessment so that they can bettr understand the process.


    Trai self-assessment team members thoroughly so that each fully understads his/her
    component and responsibility in the self-assessment process.
 OIG RESPONSE TO OHDS COMMENTS

The comments from OHDS were in genera agrement with most of the recommendations.
However, OHDS did not concur with a recommendation in the draft repon that grantees be
required to conduct self-assessments no earlier than March, due to the wide range of differences
in the individual schedules of grtees. While we believe that in general it would be more
beneficial to conduct the self-assessment late in the program year, we acknowledge the OHDS
concern that such a requirment would be overly prescriptive and might not allow grantees to
follow a schedule more suitable to their own individual needs. We have deleted that
recommendation from the final repone

Although OHDS concured with the recommendation that the SA VI be modfied to make it more
 user friendly " and to include sections on the handicapped and trsponation , OHDS indicated
that the SAVI would be diicult to change because it is so closely tied to the Head Star
regulations. OHDS fuher indicated that the Head Star On- Site Progr Review Instrment
(OSPRI), which is now being used for monitoring by OHDS regional offces, is designed to be
more " user friendly " and has a section on children with disabilties. However, it does not
address the transponation issue.

As a follow-up to their fonnal response to the draft repon, OHDS sta met with the OIG and
provided an overview of an action plan that would more fully address the repon
recommendations. According to this action plan, which wil be submitted in grater detai to the
DIG within 60 days, OHDS wil provide the results of this OIG inspection to all grantees and
regional offces. In addition , sinc the OSPRI is now being utilized for regional offce
monitoring, grntees wil be encouraged, but not required, to replace the SA VI with the OSPRI.
Grantees wil also be encouraged to include transponation in the self-assessment; the scope and
focus of the transporation review wil be determed by each grtee. Within the next year
OHDS plans to establish a task force to address transporttion. One of the agenda items wil be
how best to formally incorporate this issue into the self-assessment process. Finally, the OHDS
action plan wil identify a policy or procedure that wil enable regional offce sta to provide
feedback to grantees on self-assessment results that ar voluntaly submitted.

We have included the comments from the Assistant Secreta as well as the technical comments
and clarcations from OHDS at Appendi B.
                                                  ............
                                             ..............     ............ .....................
                                                            ...................... .......... ....




                                        APPENDIX A

                             DETAILED DESCRIPTION OF METHODS

. Very little information exists on self-assessment despite the fact that self-assessments
performed annually by all grantees. The Head Sta regulations mention self-assessment one
time. No guidace has been developed by ACYF to clarfy either how self-assessment should be
done or what constitutes goo quality self-assessment.

This inspection provided an opportunity, though a large number of discussions with people
involved in self-assessment, to determne what grtees believe to be the most imponant aspects
of self-assessment.

The inspection team conducted interviews with:

             A CYF staf.. ................ ......

             Head Star grantee staf .............................................. 117

             Head Star parnts........

             Community professionals.... ............ .............................. 33

             Regional Resource Center staf...................................... 13


                                                                            TOTAL              250

The inspection team interviewed respondents from all ten ACYF regions. Furer, the grtee
staff represented 58 grtees, including large and smal grtees located in urban and rual
settings.
Documents reviewed included:

            pertnent sections of the Code of Federal Regulations,

            Head Star Grant Application Package,

            Head Sta Self- Assessment Validation Instrments                              (SA     VI),

            regional and grantee-specific instrctions                   on self-assessment, and

            training materials provided by Regional Resource Centers.
                               APPENDIX 

                        COMMENTS ON THE DRAFT REPORT

Immediately following are comments on the draft repon from the Assistant Secretar for Human
Development Services and technical comments from the Office of Human Development
Services.
    ---- .'   . " ""-'    .." '   '-.
                                   "    '"'''                                                                                     -.
                                                                                                                                       OffiC: ot

                              DEPARTMENT OF HEALTH &. HUMAN SE                                                   \\'ED                 Human Development Services

                                                                                                    ff\C   OF tNSPEC TOR
"""flO
                                                                                                           GENERAL                     Assistant Secretary
                                                                                                                                       Washington DC 20201
                                                                                                             25 PM q: 3 \
                                                                                                    \990 Jil 





                                                JIll
                                                              2 5 1990





                         TO:	                   Richard P. Kussero
                                                Inspector General

                         FROM:                  Assistant Secretary for

                                                  Human Development Services

                         SUBJECT :	             Office of Inspector General Draft Report on "Head
                                                Start Self-Assessment" (OEI-04-S9-00790)

                     Attached are comments on the draft report by the Office of

                     Inspector General (OIG) entitled "Head Start Self-Assessment.
                     In general, we support the findings of this report and believe
                     that it fairly characterizes the state of' self-assessment in
                     Head Start programs. It contains good information to share with


                     grantees.                                                                                                         activities.
                     grantees regarding "best practice" self-assessment
                     Moreover, it shows that self- assessment can contribute to
                     improving the quality of services .provided by Head Start

                     We appreciate the opportunity to comment on this draft                                                                  report.


                                                                                                                    Mary         kfdia G

                     Attachment



         I"
         ,11 	  I'        '" .'/I

                                        i' !	
                                                                                                             " DIG-AS 


                                                                                                             . DIG­
                                                                                                                 DIG- OI
                                                                                                                           EI        1I -­

                                                                                     l1fr 0661
                                                                                                                 AIG-MP
                                                                                                                 OO/tG
                                                                                                                                      v­
         JUL 7I ,;
                                                       Db 	                                                      EXSEC
                                                                   :b    J.ld
                                                                                                                  DATE SENT -


                                                                                ""V".'­
                                                                                 O.:.1j
                                                              Ol        3dSNI ::O 3
                                                                                          /::::'J
                                                                    031\'3
        COMMNTS OF THE OFFICE OF  HU    DEVLOPMENT SERVICES ON THE
             OFFICE OF INSPECTOR GENERL' S REPORT, "HEAD START
                     SELF-ASSESSMENT, " OEI-04-89-00790

    General Comment


    Pages i and 2 contain references to Title 45, Part 1304 of the

    Code of Federal Regulations (CFR) which state that every Head

    Start grantee is required to conduct an annual self-assessment.
    As a point of clarification, the only regulatory reference in
    Part 1304 is Appendix B, Chart B. It  states that Head Start
    grantees and delegate agencies must "Conduct self-evaluation of
    (the) agency' s Head Start program.  The " operating
    responsibility" is assigned to the Head Start Policy Council
    Commi ttee. The reference to conducting an annual
    self-assessment is implied, since at least 50% of the membership
    of Policy Councils and Committees are parents of children
    currently enrolled in Head Start, and these groups change
.   annually. The implication is that each Policy Council
    Committee will then be involved in a self-assessment each year.


    ACYF Recommendation #1


    Improve the SAVI instruent which grantees use for conducting

    sel f-assessment.
         a. Eliminate the redundancy in the
            simpler and less time-consuming.
                                               instruent to make   it

         b. Simplify the terms used in the instruent in  order to
            make it more appropriate for parents and other team
            members not familiar with Head Start terminology.

         c. Update the  instruent to keep it current with changes in
            the program, for example by adding transportation and

            handicapped sections.

    OHDS Comment

    We concur with the recommendation.


    The Self-Assessment Validation Instrument (SAVI) is designed to

    assist Head Start programs in determining their compliance

    status with Head Start regulations, specifically 45 CFR Parts

    1301, Head start Grants Administration, and 1304, the Head Start

    Program Performance Standards. The organization of the SAVI

    reflects that of the regulations and redundancy is attributable

 to the language and organization of the regulations. Part 1304

 for example, is organized into four component areas. Al though
 there is a separate component for Parent Involvement, the

 requirement to involve parents in all aspects of Head Start

 program operations is woven throughout all component areas and

 contributes to much of the redundancy.
The Head Start Bureau has taken some steps to simplify the

 instruent that is used by Federal staff to conduct on-site
moni toring reviews. During fiscal year 1990, Federal staff
began using a revised   instruent entitled the On-Site Program
Review Instruent (OSPRI). The OSPRI is organized to minimize

the redundancy of some Head Start       regulations. In
                                                    addition, we
have replaced the SAVI guidance with indicators for each

regulation item to better assist the reviewer in determining

that the grantee is meeting the intent of the regulation.


After one year of use, HDS Regional staff are generally pleased

with the OSPRI, finding that the indicators make it an easier

instruent to use.     Some Regions have trained all grantees in
the use of the OSPRI. Because the SAVI is not a required
sel f- assessment instruent, many grantees have begun to use the

OSPRI as it is the   instruent  Federal staff use for monitoring.
Grantees are reporting that the OSPRI is easier than the SAVI

for parents and staff to use.


We have not eliminated the SAVI as an option for self-assessment
for grantees. In   addition to   instruentsgrantees develop on
their own, the SA VI and the OSPRI will be available for grantees

to use for sel f-assessment.
By fiscal year 1991, the Office of Human Development Services

plans to review the OSPRI to assure that the content and format

assist the reviewer in obtaining the information necessary to

make a compliance determination. When we do this , we will

consider adding areas that are not currently included. The
OSPRI now has a brief section on services to children with

disabilities. We are considering adding to this and will also
consider adding other areas, such as transportation, to the
OSPRI. There is not a SAVI related to services to children with
disabili ties or related to transportation because there are no
regulations that address such    services.Regulations covering
services to children with disabilities are, however, in the
process of being published.


ACYF Recommendation 

Provide feedback and technical assistance which grantees find
useful when they submit their self-assessment findings.


                                 -2­

 OHDS Comment

We concur with this recommendation.


Because of limited travel resources over the past several years,

Federal monitoring of Head start grantees declined, with

moni toring frequently limited to problem grantees. Prior to
this, Federal staff monitored all grantees through an in-depth

team review at least once every three years. Self-assessment
was part of a " monitoring system" generally occurring prior to

the on-site review.   The Federal team then validated the
grantee' s self-assessment findings during the review process.
When the agency' s capacity to conduct on-site reviews declined,

the link between self-assessment and monitoring also declined.


During fiscal year 1990, Regional Offices monitored at least 25%

of the grantees they fund, a much higher percentage than was

achieved in the recent past. This trend is expected to continue

with on-site monitoring increasingly receiving emphasis. We
believe that increased monitoring ' wi11 also increase the
attention paid by Federal staff to grantee self-assessment
resu1 ts. While we currently have not defined a national system
for monitoring or self-assessment, we expect to do so when the
revised Head Start Grant Application Instructions become
effective sometime during fiscal year     1991.These Instructions
implement a three- year grant application cycle that will require
grantees to submit a comprehensive grant application package
once every three years. Monitoring and self-assessment are
expected to be linked to this cycle but we have not defined that

process at this time. The revised Instructions request that
grantees submit information regarding the progress they have
made in addressing self-assessment      findings.
                                                This information
will be submitted annually and will create an opportunity for

more reqular feedback to all grantees.



ACYF Recommendation 


Develop and provide training and technical assistance to

grantees on how to improve self-assessment.


OHDS Comment
We concur with this   recommendation.
Head start Resource Centers are designed to provide large,
mUlti- granteetraining activities in response to needs
identified by grantees. We will advise the Resource Centers
that self-assessment training should be an option for grantees



                                 -3­

when conducting training needs assessments and that they should
be prepared to provide training in this        area. In
                                                   addition, the
Head start Bureau is planning a Management Institute for key
grantee staff during fiscal year       1991.
                                        Self-assessment is a
topic that will be addressed during the Management        Institute.
Grantee Recommendations


Grantees should:
     Provide feedback to self-assessment team members and all

     staff on the findings and actions resulting from

     self-assessment so that they can better understand the

     process.
     Train team members thoroughly so that each fully

     understands his/her component and responsibility in the

     self-assessment process.


     Schedule the self-assessment for no earlier than March to

     allow for adequate training.


OHDS Comment

We concur that the first two recommendations are "best practice"

activities that all grantees should address in their own
self-assessment process. The third recommendation is affected

by plans and schedules of the individual grantees. The

self-assessment is a key activity in the early stages of a
grantee' s planning process. All grantees have different
schedules to address. While the March to May time-frame is a
logical and good one for many grantees , we are reluctant to
require it for all grantees.





                                -4­

